<html>
<title> - OVERSIGHT OF THE ENVIRONMENTAL PROTECTION AGENCY'S SUPERFUND PROGRAM</title>
<body><pre>[Senate Hearing 111-1242]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1242
 
  OVERSIGHT OF THE ENVIRONMENTAL PROTECTION AGENCY'S SUPERFUND PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON SUPERFUND,
                    TOXICS AND ENVIRONMENTAL HEALTH

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


 
  
  


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
       
       
       
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-570 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001          
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

       Subcommittee on Superfund, Toxics and Environmental Health

               FRANK R. LAUTENBERG, New Jersey, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
AMY KLOBUCHAR, Minnesota             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania
BARBARA BOXER, California (ex 
    officio)
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 22, 2010
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     5

                               WITNESSES

Stanislaus, Mathy, Assistant Administrator, Office of Solid Waste 
  and Emergency Response, U.S. Environmental Protection Agency...     8
    Prepared statement...........................................    10
Stephenson, John B., Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................    23
    Prepared statement...........................................    25
    Response to an additional question from Senator Inhofe.......    42
Gibbs, Lois Marie, Executive Director, Center for Health, 
  Environment and Justice........................................    50
    Prepared statement...........................................    53
    Responses to additional questions from Senator Boxer.........    58
Pierson, Helene M., Executive Director, The Heart of Camden, Inc.    60
    Prepared statement...........................................    62
Porter, J. Winston, Ph.D., President, Waste Policy Center........    65
    Prepared statement...........................................    67
    Responses to additional questions from Senator Inhofe........    74
Stumbo, John E., Mayor, Fort Valley, Georgia.....................    81
    Prepared statement...........................................    83

                          ADDITIONAL MATERIAL

Statement from the Superfund Settlements Project, Why the 
  Superfund Taxes Should Not Be Reimposed........................    98


  OVERSIGHT OF THE ENVIRONMENTAL PROTECTION AGENCY'S SUPERFUND PROGRAM

                              ----------                              


                         TUESDAY, JUNE 22, 2010

                               U.S. Senate,
         Committee on Environment and Public Works,
                          Subcommittee on Superfund, Toxics
                                  and Environmental Health,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Frank R. 
Lautenberg (Chairman of the Subcommittee) presiding.
    Present: Senators Lautenberg, Inhofe, Baucus, and Merkley.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. We are ready to go. We welcome everyone 
here.
    I want to say that we are here today because there are 
hundreds of highly dangerous Superfund sites across the country 
that sit unabated in our neighborhoods. These sites continue to 
contaminate the environment, endanger the health of our 
children, and sabotage communities that want to strengthen 
their economies.
    To note just one statistic on the potential health impacts, 
a 2009 study found that children in school districts near 
Superfund sites are 1.5 times more likely to have autism than 
those that do not live near Superfund sites. Yet GAO reports 
that there are at least 75 Superfund sites that pose--and I 
quote here--unacceptable human exposure.
    These sites have soil that is poisoned by chemicals, 
groundwater that is contaminated, or air that is toxic. The 
health effects are alarming. Birth defects, development 
disorders, and cancer all have been linked to chemicals found 
at Superfund sites.
    Yet the work to clean up these properties has slowed to a 
crawl since the polluter pays fee expired and the Fund ran dry. 
Since 2003 funding for Superfund clean ups has depended 
entirely on taxpayers. In the 1990s, when the fee on oil and 
chemical companies was in effect, EPA was cleaning up more than 
80 sites a year. Last year it cleaned up only 20.
    And as we will hear from the GAO today, the EPA simply does 
not have the funding to get the job done. In fact, when 
adjusted for inflation, funding for Superfund clean ups has 
plummeted by 35 percent since the polluter pays fee expired in 
1995.
    Our families, children, and nearby small businesses have 
been shouldering the pain and punishment of these blighted 
sites for too long. We are going to hear today from Lois Gibbs, 
who experienced the tragedy of Love Canal firsthand. Her 
experience and the experience of others across the country show 
us that we have to make cleaning up these Superfund sites a 
bigger priority.
    Once these sites are free of pollutants an albatross will 
be lifted from their shoulders. Children's health will be 
protected, parents will have greater peace of mind, and 
entrepreneurs will be encouraged to invest once again in these 
communities. We have got two witnesses here today who will tell 
us that eliminating Superfund sites turns community plagues 
into sources of community pride.
    And I want to say something to my colleagues on the 
Subcommittee. It is fair to say that we agree on some basic 
principles. But we have got to clean up these festering sites, 
and when the responsible party can be found--the responsible 
party, and I do not speak I am sure for all of us, but the 
responsible party must pay.
    Here is the problem. Many of the most egregious Superfund 
sites are orphan sites. That means there is nobody there that 
we can go to. The original polluters are no longer around. So, 
we have before us a couple of choices for these orphan sites--
force taxpayers to foot the bill for the clean up or get the 
polluting industries to pay. Well, it is pretty obvious, I 
think, where I stand and I have for a long time, against the 
polluters and I am with the taxpayers.
    And that is why I introduced the Polluter Pays Restoration 
Act which will reinstate the fee on chemical and oil companies 
to fund Superfund clean ups. And I am pleased that the Obama 
administration officially endorsed this proposal yesterday and 
that Senators Cardin, Sanders, Whitehouse, Merkley, Levin, 
Murray, and Menendez have joined me in co-sponsoring the bill.
    I look forward to hearing from our witnesses today about 
the future of the Superfund program, and I also look forward to 
working with Senators on both sides of the aisle to tackle the 
problem.
    And before we hear from this important panel, I will turn 
to the Ranking Member on the Committee and Subcommittee for 
their opening statements.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    This oversight hearing on the EPA Superfund program, it is 
important that we have this, and as Ranking Member of both the 
whole Committee and the Subcommittee, it is important for me to 
be here.
    I have noted before that the Obama administration has 
exploited the BP spill to pursue its radical agenda to shut 
down America's domestic production of oil and gas. Of course, 
there is ample evidence for that. Just consider its recent 
support for legislation to re-impose the Superfund tax.
    The Obama administration has consistently supported that 
tax. They have supported that tax since before the Obama 
administration. It goes back several years. But until recently, 
other than mentioning it in budget documents, its public 
support was muted.
    But the spill has changed that. Now they feel the political 
climate is right to tax oil and gas companies. And not just to 
tax oil and gas companies. I went down to the floor last week 
when they had the Bernie Sanders bill which would have just put 
all oil and gas out of business, large and small. Many forget 
how broadly the Superfund tax applies if you own a business 
with over $2 million in revenue. Regardless of what you 
manufacture, you would pay the tax.
    In other words, the Superfund tax is also, it is a small 
business tax effecting thousands of such businesses across the 
country and their employees. If the Obama administration is 
serious about finding ways to stimulate the economy and create 
jobs, imposing a new tax on businesses is not the right way.
    I should also note that the responsible parties under 
Superfund already pay approximately 70 percent of the clean 
ups. I would challenge the EPA to show me one site where a 
viable, potentially responsible party has not been made to pay 
their share. And that is the way it should be.
    You know, when the Chairman said we want the responsible 
parties to pay, I do, too. We want them to pay. There is, in 70 
percent of the cases they are doing it. The only ones where 
they are not are the ones that are referred to by the Chairman 
as the orphan sites. And so they cannot locate the responsible 
parties. They no longer exist.
    Now again, some think re-imposing a Superfund tax means 
more sites will be cleaned up faster. But that is not true. As 
the Government Accountability Office noted last year in a 
report I requested, quote, and I am quoting out of the 
Accountability Office, the balance in the Superfund Trust does 
not affect the funds available for current or future annual 
appropriations.
    Now, I would like to turn to something more positive. I 
would be remiss if I did not mention the Region 6 of the EPA, 
once again how pleased I am with the progress on the Tar Creek 
sites. And the Tar Creek site was the most devastating 
Superfund site in America. It was in my State of Oklahoma, and 
we are on schedule to completely resolving that. There is still 
some work to be done.
    According to the Agency for Toxic Substances and Disease 
Registry, one in four Americans lives near a Superfund site. 
For example, the Washington Naval Yard is the closest Superfund 
site to the Capitol, right down here on the Anacostia River.
    The pace of cleaning up Superfund sites has been a 
prominent issue and remains with us today. However, the logical 
reason for this is not due to a lack of funding, as some of my 
colleagues may argue. This is due to the fact that the EPA is 
addressing larger and much more complex sites such as Tar 
Creek. By their very nature these larger sites take more time 
and resources to complete. The EPA prioritizes these sites, and 
for those of us who have been waiting patiently while other 
States had multiple sites cleaned up in a given year it is 
frustrating to hear these complaints.
    Now, if you want to expedite the pace of clean ups, and 
ultimately reducing costs, in some cases we should give more 
latitude to local and State officials who know the sites 
firsthand. I remember one--and I think both of you remembered 
one also--that was in Bossier City, Louisiana, just a few years 
ago. It was a site where the responsible party agreed that they 
should clean it up. They went to the State of Louisiana and to 
the province or what do they call them there?
    Senator Lautenberg. Parishes.
    Senator Inhofe. Parishes. Very good. And they all agreed 
that they were going to, that they should be the ones to do it. 
And they would have done it at a fraction of the costs that the 
EPA would have done it in a timeframe less than half as long. 
And it was objected to by the EPA, and so consequently that 
clean up took longer, cost twice as much, and there was no 
reason for it.
    So, I think that we need to, the EPA is essentially using 
taxpayers' hard earned dollars to create public relations 
tools, and I think that is wrong.
    So, Mr. Chairman, I do have a great interest in this 
program, and I do want to reemphasize that the polluter is 
paying today. By saying the polluter must pay it implies that 
they are not paying. They are paying today. To impose a tax on 
everybody else who is not polluting is just the same as the 
taxpayers doing it, in my estimation.
    So, with that, I look forward to the hearing.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Good afternoon.
    Chairman Lautenberg, as always, it's good to see you, and I 
continue to hope for your speedy recovery.
    We are here today to hold an oversight hearing on EPA's 
Superfund program. As the Ranking Member on the EPW Committee 
and as the Ranking Member on this Subcommittee I am glad to be 
here to discuss this important program.
    As I've noted before, the Obama administration has 
exploited the BP spill to pursue a radical agenda to shut down 
America's domestic production of oil and gas. Of course, 
there's ample evidence for that--just consider its recent 
support for legislation to re-impose the Superfund tax.
    The Obama administration has consistently supported that 
tax--but until recently, other than mentioning it in budget 
documents, its public support was muted. But the spill has 
changed that--now they feel the political climate is right to 
tax oil and gas companies.
    Yet many forget how broadly the Superfund tax applies. If 
you own a business with over $2 million in revenue--regardless 
of what you manufacture--you would pay the tax. In other words: 
the Superfund tax is also a small business tax affecting 
thousands of such businesses across the country and their 
employees.
    If the Obama administration is serious about finding ways 
to stimulate the economy and create jobs, imposing a tax on 
small businesses is obviously the wrong remedy.
    I should also note that responsible parties under Superfund 
already pay for approximately 70 percent of the clean ups. I 
would challenge EPA to show me one site where a viable, 
potentially responsible party has not been made to pay their 
share. That's as it should be. The other 30 percent are orphan 
sites--that means EPA can't locate the responsible parties 
because they no longer exist. Now again, some think reimposing 
the Superfund tax means more sites will be cleaned up faster. 
But that's not true. As the Government Accountability Office 
noted last year in a report I requested, ``the balance in the 
Superfund trust fund does not affect the funds available for 
current or future annual appropriations.''
    Now, I'd like to turn to something more positive. I would 
be remiss not to mention EPA Region Six and once again say how 
pleased I am with the progress that we have achieved at Tar 
Creek. There is much more to be done, but I am very pleased 
with the progress we have made so far.
    According to the Agency for Toxic Substances and Disease 
Registry one in four Americans lives near a Superfund site. For 
instance, the Washington Naval Yard is the closest Superfund 
site to the Capitol, located on the Anacostia River. Superfund 
sites are all around us, making this a program of great 
importance.
    The pace of cleaning up Superfund sites has been a 
prominent issue and remains so today. However, the logical 
reason for this is not due to a lack of funding as some of my 
colleagues may argue. This is due to the fact that EPA is 
addressing larger and much more complex sites, such as Tar 
Creek. By their very nature these large sites take more time 
and resources to complete. EPA prioritizes these sites, and for 
those of us who have waited patiently while other States have 
had multiple sites cleaned up in a given year it is frustrating 
to hear these complaints.
    If we want to expedite the pace of clean ups and ultimately 
reduce costs in some cases we should give more latitude to 
local and State officials who know these sites first hand. 
That's because sometimes, unfortunately, EPA can get in the 
way.
    A prime example of this is the Highway 71/72 Refinery in 
Bossier City, Louisiana. This was a former refinery that was 
redeveloped for private residences and that eventually became 
contaminated. This was a site where the local and State 
governments and the company jointly worked out a viable 
solution. EPA, however, to the dismay of those involved, 
objected and overruled it.
    One other Superfund issue that I would like to address is 
the need for EPA to reduce its administrative costs. A perfect 
example of this is EPA's new Integrated Cleanup Initiative. 
This initiative attempts to remarket EPA's progress at 
Superfund sites. This will provide new metrics to measure 
progress at Superfund sites. So EPA is essentially using 
taxpayers' hard earned dollars to create a public relations 
tool.
    I believe that this makes no sense, and I hope that my 
colleagues on this Committee will agree with me. Even if we 
disagree on Superfund issues we will always use the same 
metrics that have been used for the past 30 years to measure 
progress at Superfund sites. So no one except EPA will be using 
this initiative. This is money that could be used on the ground 
to fund clean ups; instead it's being used to wage a public 
relations campaign. This is exactly the type of administrative 
cost that EPA should be reducing instead of increasing, and I 
hope that they will redirect their funds to actually cleaning 
up these sites.
    I look forward to hearing from the witnesses, especially 
Dr. J. Winston Porter testimony on panel two.
    Thank you.

    Senator Lautenberg. Thanks.
    Just one correction, if I might, to my friend from 
Oklahoma. And that is that it was not $2 million worth of 
revenue, it was $2 million worth of taxable income so that the 
revenue had to be substantially higher than that before a tax 
was imposed.
    Senator Baucus.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Chairman. And again, I want to 
thank you very much for you and you, also, Senator Inhofe, for 
your Superfund concerns.
    As I sit here, I am reminded when you were sitting right 
over there of all the work that you did on brownfields, and 
brownfields in my State have made a huge difference. It helped 
develop certain areas that otherwise would not be developed, 
and I just want you to know that, on behalf of all the people 
in the State of Montana, they very much appreciate the 
brownfields legislation because it has advanced development.
    Chairman, also, I want to speak today not just about the 
bill you have introduced but about Libby, Montana. I know you 
have heard a lot about Libby, and Senator Inhofe, I am sure you 
have, too. But there may be other Committee members who may not 
be here at the moment but who indirectly should hear about the 
story of Libby, Montana.
    Libby is way up in the northwestern part of Montana. It is 
close to Idaho. It is close to Canada. It is a beautiful little 
town in northwestern Montana. It is also a place where, to 
date, 291 people in a community of under 3,000 have gotten sick 
and died due to the pervasive presence of asbestos spewed from 
vermiculite mining and mine operations of the company of W.R. 
Grace.
    I do not know if you have read the book A Civil Action. It 
is about W.R. Grace's actions in Woburn, Massachusetts. But 
when I read A Civil Action, man, it was just--it is powerful. 
And basically the story is repeated up in Libby, Montana, by 
the same company, W.R. Grace.
    This community is a community with a death rate from 
asbestos at their sources at 40 to 60 times greater than the 
national average. The people of Libby were coated every day for 
decades with 5,000 pounds of asbestos dust released every day 
into the air by W.R. Grace mining and building operations. They 
brought asbestos dust home with them, the miners did.
    I can remember going up, as we often do, to mine sites and 
standing at the gate and talking to the miners as they would 
come off shift, going up to the site and seeing these miners 
coming off, out of the bus, and they are just so caked with 
this white dust. And I knew, intuitively, something is wrong 
here. We did not know precisely what it was, but intuitively, 
something is wrong here because they were just so caked with 
dust.
    These folks--these guys mostly, I do not think any women 
worked up at the mine site at the time--they brought the 
asbestos home with them on their clothes. They would embrace 
their spouses. Their kids would jump into their laps. Many of 
them were already infected and did not know it was asbestosis, 
and they gave it to their spouses, and they gave it to their 
kids unknowingly. Afterwards it turned out their spouses get 
diagnosed, and their kids would be diagnosed, and just think 
how bad they felt for transmitting this disease off onto their 
family.
    They normally used vermiculite that was contaminated with 
asbestos to fill their gardens. The stuff was used to fill 
their gardens. In the town of Libby, it was used on driveways, 
it was used on the high school track, the Little League field, 
it was up in attics, it was everywhere.
    The people of Libby are just basic, ordinary wonderful 
folks like my friend Les Skramstad. I first met Les in 2000 in 
the living room of a good friend of Les and a bunch of other 
people, Gayla Bennifield, it was their home, and they are just 
very, very concerned about all the asbestos in Libby. No one is 
paying attention to it. And I was in the living room there 
talking to Gayla and Les and all of their friends, and it is 
just one of those moments in life that, boy, this is something, 
you just got to pay attention to, it is just rare to see 
something this tragic. And this was one of those.
    Les said to me, he looked me straight in the eye afterward, 
and he said, Senator, you know, a lot of people have come to 
Libby, and they promise they are going to help, but they come 
and they leave. And I will be watching you. I promised myself 
at that moment that I am not going to let Les down, like 
whatever I do in life, I have got to make sure that the people 
of Libby get justice for this travesty that has been imposed 
upon them. And I--we have taken lots of actions since then. I 
will not enumerate them here right now, but we have got a long 
ways to help bring justice to the people of Libby.
    I am sorry to say that Les passed away from asbestos-
related disease in January 2007. I have kept a photograph of 
Les. Whenever I meet a new EPA Administrator, whenever I meet a 
new HHS Secretary, I ask them, I show them the photograph of 
Les, and I explain to them that this photograph is on my desk 
right now. And I do not know if they have done this, but I have 
encouraged them to keep a copy of Les' photograph as well just 
as a reminder not just of the people of Libby but also a 
reminder of ordinary folks who have been faced with such 
pollution.
    We are making some headway up in Libby. In 2000 Libby was 
declared a Superfund site. In 2009 Administrator Jackson 
declared a long delayed public health emergency in Libby. This 
is monumental. It will go a long, long way. It has never been 
done before. And I applaud EPA Administrator Jackson for that 
effort.
    The Healthcare Reform Package also enacted this year 
contains some requirements for medical care at sites where 
there has been a public health emergency declaration, and that 
was the main point for putting that in that legislation.
    But in some ways we are in the same spot as we have been 
for years. I am concerned that the Agency may not be taking 
appropriate steps to protect public health in Libby. There is a 
health, there is a screening, but there is also the Superfund 
clean up which is the subject of this hearing, and I am a bit 
concerned that that has not been addressed fully. I am also 
concerned with some of the lack of communication between EPA 
and the people of Libby as well.
    The people of Libby want justice. And I want justice. They 
want something very simple. They want to know that their 
community and their schools are safe for them, safe for their 
families. It is EPA's responsibility to get this clean up right 
so that life in Libby can get back to normal. And I thank you, 
Senator, for holding this hearing because it gives us an 
opportunity to talk to the Agency and make sure we are doing 
all we can properly for the people of Libby.
    I thank you.
    Senator Lautenberg. Thanks very much, Senator Baucus. That 
beautiful State of yours looks like it is exempt from any 
pollution or things of that nature, but I know that----
    Senator Baucus. Would that that were true.
    Senator Lautenberg. But I know that Libby, Montana, is.
    Senator Baucus. Thank you.
    Senator Lautenberg. I went to high school in Patterson, New 
Jersey, where several of the students would work part-time in 
an asbestos factory nearby. And the story that you told about 
your friend and his family, a man came to see me with wife and 
son. He worked in the asbestos factory, and the son has 
mesothelioma, as did the wife, just from laundering the clothes 
that he brought home. So, we are looking at this toxic material 
and saying my gosh, we have to do something, something serious 
about protecting our families.
    I now call on Mathy Stanislaus, the Assistant Administrator 
for the Office of Solid Waste and Emergency Response which 
oversees the Superfund program at the Environmental Protection 
Agency, and John Stephenson, Director for Natural Resources and 
Environment at the Government Accountability Office.
    We welcome both of you, and Mr. Stanislaus, you may begin 
with your testimony at this time.

STATEMENT OF MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, OFFICE 
   OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Stanislaus. Good afternoon, Chairman Lautenberg, 
Ranking Member Senator Inhofe, and Senator Baucus. My name is 
Mathy Stanislaus. I am the Assistant Administrator for EPA's 
Office of Solid Waste and Emergency Response.
    Thank you for the opportunity to appear today to discuss 
the Superfund program, including the progress that has been 
made, actions to address, program challenges and EPA's response 
to GAO's recently released Superfund report. Mr. Chairman, I 
particularly appreciate your longstanding support of the 
Superfund program.
    Prior to my arrival at EPA I had long recognized the 
importance of the Superfund program in protecting communities 
from the risks posed from hazardous waste sites. After my 
Senate confirmation one of my first priorities was to assess 
the Superfund program and identify ways to improve program 
performance.
    I also took it upon myself to visit some of the most 
impacted Superfund sites around the country. I visited Libby. I 
met with community members, and I fully appreciate the impacts 
from W.R. Grace's activities. I went to Oklahoma, and I visited 
the Tar Creek facility and addressed the need for relocation of 
residents in Tar Creek as well as in Treece. I visited Coeur 
d'Alene and Bunker Hill. Because I believe that my 
responsibility is not only set in DC but to see how communities 
are burdened and are impacted by Superfund sites.
    The Superfund program has a variety of tools to protect 
human health and the environment. These include shorter term 
removal options to mitigate immediate threats to human health 
and the environment and remedial actions which address more 
complex and long-term clean up of hazardous waste sites.
    EPA conducts time critical and non-time critical removal 
actions to protect human health and the environment by either 
funding response actions directly or overseeing and enforcing 
actions conducted by potentially responsible parties. Through 
shorter term actions the Superfund program mitigates imminent 
threats to human health and the environment and controls 
exposure to hazardous substances so human health is protected 
while long-term clean up is underway.
    For example, where EPA determines that existing water 
supplies are unsafe due to releases from contaminated sites we 
provide alternative sources of drinking water. To date EPA has 
provided more than 2.1 million people near or on Superfund 
National Priorities List sites with alternative sources of 
drinking water.
    I also want to mention EPA's successful Superfund 
enforcement efforts. One of EPA's main priorities is to 
identify the parties responsible for the contamination of 
hazardous waste sites. In fiscal year 2009, EPA secured 
commitments from potentially responsible parties to perform 
clean ups and reimburse EPA for past costs worth nearly $2.4 
billion. EPA's enforcement efforts have allowed the program to 
focus EPA's appropriated funds on sites where responsible 
parties cannot be identified or are unable to pay for or 
perform the clean up.
    While Superfund continues to make progress cleaning up 
hazardous waste sites, we still face numerous challenges. One 
such challenge involves ensuring that our clean up activities 
are conducted in an accountable and transparent fashion so that 
communities have the information they need to be active and 
engaged participants in the clean up process. This challenge 
has become especially critical as returning Superfund 
properties to productive use has become an integral part of the 
clean up process.
    Another challenge is the need to more effectively leverage 
clean up resources to compensate for the largest and most 
complex sites that have come to demand an increasing proportion 
of EPA's Superfund resources. Over the past decade this has 
meant some new construction projects could not be immediately 
funded.
    One of the ways to address these challenges is to 
effectively utilize every dollar and resource available to 
clean up contaminated sites and protect human health. In fiscal 
year 2009 EPA's Superfund program obligated more than $1.1 
billion to conduct clean up, construction and post-construction 
work at Superfund sites. Of that amount $563 million were 
American Recovery and Reinvestment Act funds while $402 million 
came from appropriated funds, State cost-share contributions, 
and responsible party settlement resources. EPA used $247 
million of the total obligated amount to fund 26 new 
construction projects at 26 new NPL sites.
    Notwithstanding the past program efforts my assessment of 
the program indicated that we could do more to address 
Superfund performance. EPA recently has started a new effort 
called the Integrated Cleanup Initiative. Under this initiative 
we have begun to examine and identify programmatic improvements 
across all stages of the clean up process from assessment 
through clean up completion for all of our land clean up 
programs.
    By looking across all of our land clean up programs we seek 
to integrate and leverage the Agency's clean up authorities to 
accelerate clean ups, address a greater number of contaminated 
sites, and put these sites back into productive use while 
protecting human health and the environment.
    I see I am out of time. If you would indulge me until I 
finish my comments?
    Senator Lautenberg. [Off microphone.] We will have your 
full statement for the record.
    Mr. Stanislaus. OK. Thank you.
    [The prepared statement of Mr. Stanislaus follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
        
    Senator Lautenberg. Thank you.
    Mr. Stephenson.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Thank you, Mr. Chairman, Ranking Member 
Inhofe, and Senator Baucus. I am pleased to be here to discuss 
GAO's report on Superfund issues being released to the full 
Committee today.
    The Superfund program, as you know, has been around for 
three decades. Since that time over 47,000 sites nationwide 
have been assessed, and the most severely contaminated have 
been placed on the National Priorities List or NPL. There are 
currently about 1,270 sites on the list with New Jersey, 
California, and Pennsylvania having the most. About 160 of the 
sites are Federal, primarily Department of Defense facilities, 
but the remaining 1,100 are industrial or non-Federal 
facilities.
    With the expiration of the Superfund tax in 1995 the size 
of the Trust Fund has dwindled from $5 billion in 1997 to a 
little over $130 million today. Currently funding for site 
assessment and clean up if no responsible party can be 
identified or made to pay comes primarily from appropriations 
averaging about $1.2 billion a year.
    The report we are releasing today in part focuses on the 75 
sites that still pose a risk of unacceptable human health 
exposure. We reasoned that these sites should be receiving the 
highest priority for clean up as quickly and efficiently as 
possible. However, we found that EPA has spent over $3 billion 
on these 75 high risk sites, an average of about $40 million 
per site, and many have been in clean up for over a decade, yet 
more than half of the work remains for over 60 percent of these 
sites.
    This is because the EPA spreads limited resources thinly 
across a large number of States and sites in an effort to make 
everybody happy. And this approach results in lengthier, more 
costly, and more inefficient clean ups. These inefficiencies 
also mean that people around these sites potentially will be 
exposed to health risks far longer than would be the case if 
clean up were completed more quickly. In fact at the current 
rate 41 of the 75 sites will still pose a risk of human health 
5 years from now. EPA did receive $600 million in Recovery Act 
funding, which has been mentioned, and this did enable them to 
speed up clean up at 51 more sites.
    We also found, based on our survey of regional site 
coordinators, that EPA's Remedial Action funding needs are 2 to 
2.5 times greater than the funds it typically receives for that 
purpose. EPA uses a collaborative system to allocate Superfund 
resources among its regions and States. But according to our 
survey, which collected data on fiscal years 2000 through 2009, 
most regions have sites that have experienced delays in 
starting clean up because of insufficient funding. Over one-
third of the sites are not funded in the year they are ready 
and often wait 1 to 3 years until funds become available.
    While it seems clear that EPA will need more resources for 
remedial actions at sites than it currently has, the exact 
amount is difficult to determine. Unknowns such as the status 
of responsible parties, their ability to pay, and the status 
and scope of the clean up once remedial action is underway make 
out-year projections very difficult.
    For example, we recently reported that for the Federal 
Creosote Superfund site in New Jersey the greater than expected 
quantities of contaminated material found during clean up 
contributed to a $233 million increase in remedial costs over 
EPA's original estimate, and the total cost ballooned to nearly 
$350 million for this site alone.
    Finally, Mr. Chairman, we found that the number of new 
sites listed on the NPL over the next 5 years will likely be 
greater than the number listed over the past 5 years, further 
increasing the need for resources in the future. EPA regional 
and State officials we interviewed estimated that from 100 to 
125 sites, an average of 20 to 25 sites per year, will be added 
to the NPL over the next 5 years in contrast to the about 16 
sites per year that were added in the past 5 years.
    The current economic conditions in the States and the 
inability of responsible parties to pay for clean up are 
contributing factors to the expected increase in newly listed 
sites. In addition the number of new sites listed in the future 
could further increase by up to 37 sites if EPA implements our 
recommendation to include the risk of vapor intrusion into 
homes and commercial properties as criteria for listing. EPA 
does not currently recognize these risks in the listing process 
and thus cannot use remedial program funding to clean up these 
sites.
    In conclusion, we found that limited funding for the 
Superfund program has caused delays in cleaning up Superfund 
sites and that more resources would likely result in quicker, 
more efficient, and less costly clean up in the long run. More 
importantly, this could remove the risk of unacceptable human 
exposure from these sites sooner than would be possible at the 
current funding levels.
    Mr. Chairman, that concludes a summary of my statement, and 
I would be happy to answer questions.
    [The prepared statement of Mr. Stephenson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    Senator Lautenberg. Thank you very much.
    Mr. Stephenson, at the end of your remarks you talked about 
the kind of delays et cetera that would result if we do not 
have a more, a larger fund available. If we do not provide more 
resources for EPA, how long might it take to clean up all of 
the currently listed Superfund sites, despite the fact that a 
lot more are expected in the next 5 years? Just look at the 
present list. How long might it take to clean them up if all 
the resources that we have are those that we have allocated 
annually for the last few years?
    Mr. Stephenson. It will be decades. But it is impossible to 
really determine because of a number of uncertainties. As 
Senator Inhofe mentioned 70 percent of the funds come from 
responsible parties to clean up sites. There is no way of 
estimating how that will play out in the future.
    Senator Lautenberg. Well, the obvious is the question, 
where does the funding for the clean up come from now?
    Mr. Stephenson. Right now it comes almost exclusively from 
appropriations each year, so it is dependent upon you, the 
Congress, to provide the money for the clean ups.
    Senator Lautenberg. The taxpayers.
    Mr. Stephenson. We did some analysis of completed sites, 
and you can see that the completed sites peaked while the 
Superfund was in place and has dwindled since then.
    Senator Lautenberg. But it is the taxpayers' responsibility 
if we do not have the polluters paying for what they have done. 
If the polluters are gone, as many of them are, sites orphaned, 
who pays for it? You and me and the rest of the people sitting 
in this room and across the country. Is that correct?
    Mr. Stephenson. That is the case today.
    Senator Lautenberg. Thank you.
    GAO found 75 Superfund sites with unacceptable human 
exposure. EPA regional officials expect unacceptable human 
exposure to continue between, beyond 2015 for 41 of these 
sites. If we reinstated the Superfund Polluter Pays Fee to help 
get at those sites, what might it do to get them done quicker? 
Is it a question, what is the thing that delays cleaning up 
these sites?
    Mr. Stanislaus.
    Mr. Stanislaus. There are a number of sites where human 
exposure is not under control. Let me first set forth that 
those sites that have imminent risk, that is acute risk, we 
address through a separate program. It is called the Removal 
Program. So, what is at imminent risk of acute exposure we 
address that through the Removal Program. Where you have longer 
term risk, we address that through the Remedial Program. So, of 
those sites, there is a subset----
    Senator Lautenberg. I do not mean to cut you off, but we 
have time constraints. Could reinstating the Superfund Polluter 
Pays Fee, would it help to get these sites cleaned up faster? 
If we had more resources?
    Mr. Stanislaus. Well, reinstating the Superfund tax would 
provide a dedicated source of dollars for the Congress to 
appropriate funds. So, it is a combination of a dedicated 
source of money and an increase in appropriations from the 
Trust Fund.
    Senator Lautenberg. Mr. Stephenson, would more resource 
help get these sites cleaned up faster? Does a lack of resource 
mean anything in terms of the pace of clean up?
    Mr. Stephenson. Of course it does. Let me say that these 75 
are NPL sites, and that is EPA's designation that they pose an 
unacceptable human risk. The site coordinators that we talked 
to who know each of these sites are the ones that told us that 
the resource need to clean up these sites quicker is 2 to 2.5 
times what they currently have. So, whether the sources come 
from responsible parties or from taxes or from appropriations, 
more money would result in cleaning them up faster as was 
evidenced by the Recovery Act----
    Senator Lautenberg. These sites grow ever more dangerous.
    Mr. Stephenson. Well, they still pose a risk. I do not know 
whether they increase in danger, but if they are not cleaned up 
people are exposed to the contamination for longer than----
    Senator Lautenberg. So, to me, that is the danger.
    Mr. Stanislaus, GAO's report finds that EPA does not take 
vapor intrusion into account in determining whether a site 
should be listed for Federal clean up. GAO said some seriously 
contaminated hazardous waste sites with unacceptable human 
exposure may not otherwise be cleaned up. When will we get a 
plan to this Committee to address this shortcoming?
    Mr. Stanislaus. Well, we are currently evaluating the 
inclusion of vapor intrusion in the hazardous ranking system as 
part of the Integrated Cleanup Initiative. Separately we do in 
fact currently include in our clean up activities the 
addressment of vapor intrusion. So, it is true that it is not 
currently a factor for listing on the NPL, but once a site is 
listed we do in fact address vapor intrusion in the site clean 
up.
    Senator Lautenberg. So, vapor intrusion is a serious factor 
as we look at these----
    Mr. Stanislaus. Absolutely.
    Senator Lautenberg. Senator Inhofe.
    Senator Inhofe. OK, let me just restate again--and again if 
necessary--the polluter is paying now. It is not a matter of 
the polluter has to pay. The polluter is paying. Now, there is 
one recent exception to that, and that is one that I think, I 
do not know how my colleagues voted on the $700 billion 
bailout, I voted against it, I suspect that they voted for it--
--
    Senator Lautenberg. I was glad I voted for it. It turned 
the economy around.
    Senator Inhofe. OK, I need a little more time if that is 
going to----
    [Laughter.]
    Senator Inhofe. Two of the bailouts were General Motors and 
Chrysler. Now, the way this was structured, they were turned 
into two, kind of an old corporation and a new corporate 
entity. Under the new corporate entity they did not have any 
assets from the old corporate entity. The old corporate entity 
was responsible for problems, clean up problems. And they, 
however, since they passed that sweetheart deal they no longer 
are forced to pay for the pollution that they caused. That is 
the only exception that I know of. Can either of you think of 
another exception where the polluter has just not paid and had 
the assets to pay and could be found?
    Mr. Stanislaus. There are a number of circumstances where a 
responsible party does not have adequate resources----
    Senator Inhofe. I understand. I said has the ability to pay 
and can be found.
    Mr. Stanislaus. Well, I mean there are cases where PRPs, it 
is difficult to get some PRPs to settle with the EPA, and where 
that circumstance arises and there is no other recourse EPA 
does in fact move forward----
    Senator Inhofe. Well, it is obvious if you want to raise 
taxes on people to do it, you can go out and tax anyone. The 
tax you are charging here, I say to my friend the Chairman, is 
a tax on corporations, on businesses. It could be a tax on 
churches; that would also provide revenue if you wanted to go 
that way, to do it. I am just trying to think of the 
justification, because I have not heard it yet, on why you go 
out and pass taxes on corporations that had nothing to do with 
any type of a spill.
    Let me ask you something, I ask my good friend on the GAO, 
because you heard my example of Bossier City. Do you remember 
that case by chance?
    Mr. Stephenson. I do not.
    Senator Inhofe. OK. Would you do me a favor, just for the 
record, go back and research that because I am going from 
memory now. But sitting right here in the chair where I am 
sitting, although Republicans where a majority at that time so 
I was Chairman of this Committee, I remember that was the 
typical case in Louisiana where everybody, the parishes, the 
States, the responsible parties, all wanted to do it, and they 
were going to do it for X dollars. Now, I would like for you to 
fill in that X for me by going back and researching that. And 
then, also, it would have taken less time.
    I guess what I am saying to you, my friend from the GAO, is 
maybe that is another area we should be looking at to make sure 
that we get people, we do, we clean these up effectively and do 
so in the most efficient manner. In that case, if there are 
many others like that, that would be a lot of money, an awful 
lot of money. Is that worth looking at?
    Mr. Stephenson. It is. I agree that right now the resources 
that are available are spread very thin in the effort to make 
States happy and the site clean up folks happy, but that it not 
an efficient way to do this.
    Senator Inhofe. Yes. Well, let me ask you another question. 
If we have a tax on chemical companies, regardless of whether 
or not there is any problem with polluting and all that, and 
that tax would go into the products, that would raise the, 
obviously raise the price of those products. However, if you 
had imported the same products from another country that would 
be a finished product, so they would not have been subjected to 
that. Would that not mean that we are actually putting our 
manufacturers at a competitive disadvantage from those under 
that particular scenario?
    Mr. Stephenson. Well, as I understand it, the tax is 
subject to imports as well.
    Senator Inhofe. Subject to imports on the raw materials. I 
am talking about finished products.
    Mr. Stephenson. Yes, well, the third component of the 
Superfund tax is a general corporate tax.
    Senator Inhofe. Yes, sir.
    Mr. Stephenson. Well, we have not studied that.
    Senator Inhofe. Well, this concerns me. We are talking 
about tax, as I understand it, 9.7 cents per barrel, 22 cents, 
I am not sure how that is calculated, on chemicals, and then a 
corporate tax of .12 percent. It is still a tax increase, and 
there is no relationship between the tax increase, the person 
on whom this tax is levied, and on any type of pollution or any 
type of a damage that was incurred by that party. I mean, there 
is not a relationship between the person, that entity that is 
being taxed, and any type of problem that they have created.
    Mr. Stephenson. Well, the Trust Fund is a form of financial 
assurance for an industry----
    Senator Inhofe. Yes, I understand that.
    Mr. Stephenson. To try to provide a funding source, a 
steady, routine funding source to clean up, similar to the 
Underground Storage Tank Trust Fund where it is taxed based on 
.1 cent per gallon. That is a fund that exists to clean up old 
gas stations that have been abandoned. So, the principle is 
sort of the same for any trust fund.
    Senator Inhofe. Yes, I know. We have talked about this for 
a long period of time. In fact it has been proposed that I know 
of now for about 10 years, and where you might be successful in 
this particular political atmosphere in getting this tax 
increase, it seems like it is pretty easy to increase taxes 
nowadays, but perhaps that will just be a temporary one.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    I would just like to confirm, frankly, Mr. Stanislaus, the 
Agency's policy with respect to certain sites in Libby, 
Montana. As I understand it, there are either 8 or 10 total, 8 
total, 2 of which are industrial, the rest are residential. The 
question is, I want to establish and make certain that the 
Agency has no plans to move forward with a record of decision, 
either interim or final, prior to the full completion of risk 
assessment and toxicity studies at Libby. Can you confirm that?
    Mr. Stanislaus. Well, just to be clear, there are different 
operable units in Libby. There are a number of operable units 
that are depending upon the toxicity studies. There are the 
first operable units that are not dependent upon the toxicity 
studies, and the reason is because a risk assessment was 
performed, and the first operable units will create a barrier 
to prevent any exposure. So, that is why we believe that we can 
move forward and to protect residents as quickly as possible in 
Operable Units 1 and 2 because it is not dependent on the 
toxicity study.
    The toxicity study, what that will inform is the level of 
exposure that is appropriate and make a decision for some of 
the commercial properties. But that is not necessary for 
Operable Units 1 and 2. That is why EPA has recommended 
Operable Units 1 and 2 to move forward, and again Operable 
Units 1 and 2 is to create a barrier to prevent exposure.
    Senator Baucus. All right. But what if the toxicity studies 
show that the clean up should be at a higher level, a higher 
standard, than a record of decision might otherwise provide?
    Mr. Stanislaus. The toxicity studies will not really inform 
Operable Units 1 and 2 because even if the toxicity studies 
show there should be a greater level of protection, that would 
inform the other operable units. The reason that it will not 
inform Operable Units 1 and 2 is because Operable Units 1 and 2 
the proposed remedy is to prevent or create a barrier between 
the asbestos and potential exposure.
    Senator Baucus. Could you explain that? What is the 
barrier?
    Mr. Stanislaus. It is basically a clean barrier. You create 
a soil barrier between where the asbestos is contained and any 
potential for exposure. This is used around the country as a 
technique to prevent exposure.
    Senator Baucus. I just want to just confirm that where 
record decisions are appropriate that the Agency not proceed 
until toxicity studies are complete.
    Mr. Stanislaus. Yes. I mean, for those operable units where 
toxicity study will be dependent on those decisions, 
absolutely. But those operable units where we do not believe it 
is dependent on it, we believe in order to move forward and 
protect people in the shorter term that we should move forward 
on those operable units.
    Senator Baucus. Do you commit not to implement a record 
decision for residential operable units until a risk assessment 
is done?
    Mr. Stanislaus. Yes. Based on our science and the risk 
assessment we believe that the most scientifically sound 
decision on Operable Units 1 and 2 was to actually move forward 
on 1 and 2, which will again create a barrier to prevent 
exposure. And the toxicity studies, again, will not affect that 
decision. It will affect other operable units.
    Senator Baucus. All right.
    Another subject is protecting the kids, the children of 
Libby. There is a school there. It has got lots of asbestos in 
it, and I am just asking whether the Agency will commit to a 
cumulative effects study on child, on childhood exposure in 
evaluating your risk assessment.
    Mr. Stanislaus. In the Libby specific risk assessment?
    Senator Baucus. Yes, in Libby.
    Mr. Stanislaus. There are ongoing risk assessment studies, 
and let me commit to go back, and I believe that is a sub-
component of that study. But I will commit to go back and look 
at the components of that study.
    Senator Baucus. Would you, please? Because clearly kids are 
more vulnerable, and it is just that much more important to 
make sure that there is a cumulative effects study at Libby. It 
is at the school, I have toured the school, and it needs help. 
So, I just, we are trying all we can to make sure that, Libby 
is my thing, to make sure Libby is protected. Thank you.
    By the way, do you have a photograph of Les, Mr. Skramstad?
    Mr. Stanislaus. I do not. But I will take it.
    Senator Baucus. OK. I will get you a photograph of Les 
Skramstad.
    Mr. Stanislaus. OK.
    Senator Baucus. I just ask you to consider putting it on 
your desk in your office.
    Thank you very much.
    Senator Inhofe. Mr. Stanislaus, I was distracted when you 
made a reference to Tar Creek. Did you say you made a visit 
there?
    Mr. Stanislaus. Yes, sir.
    Senator Inhofe. To the Picher-Cardin area?
    Mr. Stanislaus. Yes.
    Senator Inhofe. You know, that is really a marvel of how 
things can be done right. That was a devastating site and to 
look at it and to consider that we had been trying to do 
something, or they had been, I was not here then, for 30 years, 
and they had never done any mapping under the ground, and now 
it appears that if we had not gotten in when we did, several 
structures, such as an elementary school house, could very well 
have dropped down, killing every child that was in there at 
that time.
    I mean, it was, and I like to get on record whenever I can, 
to compliment everyone who is involved in it. Of course the EPA 
was, the Department of the Interior was, the Department of 
Justice was, and the Corps of Engineers and others. But that 
was, I think you can kind of hold that up as model of the way 
things should happen. Great job.
    Mr. Stanislaus. Thank you.
    Senator Lautenberg. Yes. Thanks for that confirmation, 
Senator Inhofe. Senator Inhofe is a very skilled Senator, and 
while we disagree, his arguments for things as he sees them are 
cogent, put together in a view that differs from mine 
obviously, but are respectfully noted.
    Who did the clean up at the, what's that name?
    Senator Inhofe. Tar Creek.
    Senator Lautenberg. Tar Creek. Who did that clean up?
    Mr. Stanislaus. That was a Federal-led clean up.
    Senator Lautenberg. Hooray for the Federal Government.
    Senator Inhofe. It did an excellent job.
    Senator Lautenberg. And it was a, well, I am pleased to 
hear it. But also, Senator Inhofe, I note with some 
understanding as to what the risks were had that not been 
cleaned up, and therefore I hope that as time goes by, I hope 
to persuade you that we ought to do the same thing all over 
this country of ours and move things along.
    Senator Inhofe. Let me make one other comment about that, 
Mr. Chairman. The, since there is a record being made of this, 
of this meeting, that there are two other parties were a part 
to this too, the University of Oklahoma and the State of 
Oklahoma. And it was put together, really, by the Governor, who 
happens to be Democrat, and myself. And it is a very successful 
program.
    So, it is a three part program. You had your Federal, that 
was the EPA; State, the State of Oklahoma; and then, of course, 
the University of Oklahoma provided some of the engineering 
leadership.
    Senator Lautenberg. The public is not here to listen to our 
debate, but the fact of the matter is that I cannot imagine any 
site that is cleaned up that does not have its State Department 
of Environmental Protection, or whatever it is called, 
participating in that. We, unfortunately, in New Jersey are the 
recipients of the largest number of sites across the country, 
over 112 sites, a salute, unfortunately in reverse, to our 
industrial past.
    I am not sure I understood the response from either of you 
when we talk about more resources. How many sites were we 
cleaning up when we had the funds, the Fund itself, fairly 
robust, where it was up to $5 billion at one point? Am I 
correct?
    Mr. Stanislaus. The total of the Trust Fund itself?
    Senator Lautenberg. Yes.
    Mr. Stanislaus. I do not have that number in front of me.
    Senator Lautenberg. All right. Well, I can tell you. It was 
$5 billion. I am surprised that neither one of you knows that. 
But the fact of the matter is that when we had more money, by 
God we cleaned up more sites. Is that correct?
    Mr. Stanislaus. If you have more money----
    Senator Lautenberg. How many sites did we clean up in those 
days?
    Mr. Stanislaus. From 1992 to 2000, we averaged about 80 
sites per year.
    Senator Lautenberg. And how many are we doing now?
    Mr. Stanislaus. We did 19 last year.
    Senator Lautenberg. Well, if that does not tell you 
something about the exposure that we are willing to let people 
have who unfortunately live near these Superfund sites. If you 
see that I am aggravated, you are right. The fact of the matter 
is that the biggest concern for our Government has to be how we 
take care of the children, the future generations. And to let 
them languish around Superfund sites and not be exercised by 
the fact that we do not have enough money to do this.
    If we look at the Administration's request, they ask for 
$1.29 billion for the program, a decline from previous years 
after adjusting for inflation. And I remind my colleague here, 
he is an intelligent fellow, the fact is that very often 
corporations, and I ran a very large one, the company I ran 
today has 46,000 employees, a company we started, three of us, 
ADP, and we all paid taxes for various services that the 
Government supplies including FAA and highways and you name it. 
The money that I pay, we pay, the corporations pay, goes to 
those programs. And if it is a program that affects national 
health, by God, whether it is confined to a community here or 
there, we ought to be paying for it by the polluter. And what 
happens?
    The questions that Senator Inhofe was asking you I thought, 
very frankly, were evaded in terms of the answer. There is 
something called an orphan site where it says there is no one 
around who has the direct responsibility for the pollution. And 
so it is an orphan site, and therefore we all have to kick in 
for the well being of many thousands, and maybe more, of our 
citizens.
    Just as a reminder, and I know that you are aware of this, 
I do not know whether you are suggesting that as a corporation 
was reforming, reincorporating, it certainly could not have 
been to escape liability, but you cannot escape liability under 
the process of an obligation like that and leave the obligation 
behind.
    Senator Inhofe. No, I was referring to the bailout. The 
source of that was the $700 billion bailout. But it was General 
Motors and Chrysler. In that case, they divided them into two 
corporations, the past corporation and a current corporation. 
The new corporation would not be subjected to the types of, the 
penalties or to clean up, because they did not accept any of 
the obligations and liabilities of the old corporation.
    So, it should not been done that way, but it was done that 
way. I was only pointing that out as the only example I know of 
where the polluter has not paid if he has the resources and you 
can find him.
    Senator Lautenberg. Yes. But General Motors and the other 
companies were not responsible for killing or maiming children, 
or pediatric cancers or other diseases that befell their past 
behavior because otherwise there would have been no TARP, no 
recovery, and no jobs.
    I thank you very much for your testimony and for your 
answers. We will keep the record open, and I would expect a 
relatively speedy return on any questions that are submitted in 
writing. Thank you.
    Next panel, please.
    Ms. Gibbs, Lois Gibbs, long time advocate for cleaning up 
dangerous sites, known as the Mother of Superfund for work in 
uncovering toxic exposures in Love Canal, New York. Helene 
Pierson, Executive Director of Heart of Camden, a non-profit 
community development in the State of New Jersey. This is a 
relatively poverty stricken--no, not relatively, it is a 
poverty stricken community, and they need guidance and support 
to make their citizens more comfortable in their existence and 
their families. Dr. Porter, Dr. Winston Porter, President of 
The Waste Policy Center and former EPA Assistant Administrator 
for Solid Waste and Emergency Response. Your hairstyle has 
changed. It has gotten grayer; mine has disappeared. And Dr. 
John Stumbo, Mayor of Fort Valley, Georgia.
    We welcome all of you here, and we invite Ms. Gibbs to 
begin your testimony at this point.

 STATEMENT OF LOIS MARIE GIBBS, EXECUTIVE DIRECTOR, CENTER FOR 
                HEALTH, ENVIRONMENT AND JUSTICE

    Ms. Gibbs. I want to thank you and the members of the 
Committee for inviting me here. My name is Lois Gibbs, and I am 
Executive Director for the Center for Health, Environment and 
Justice. It is a national organization that has worked with 
over 10,000 community groups faced with environmental health 
threats over the past 30 years. I also was a resident and 
community leader at Love Canal in Niagara Falls, New York.
    And as I began preparing my testimony for this afternoon it 
occurred to me that 31 years ago I spoke to a congressional 
Committee just like this, at a table just like this, asking for 
funding designed for the assessment and the clean up of 
hazardous waste sites. My community at Love Canal in Niagara 
Falls, New York, was in part the impetus for creating the 
Superfund program after 20,000 tons of chemicals buried in the 
middle of my neighborhood leaked into the surrounding yards and 
the school playground.
    I spoke then about the need of the program because at Love 
Canal 56 percent of our children were born with birth defects, 
and my daughter and my son were home at the time with liver, 
urinary, and central nervous system diseases.
    Another speaker at that same hearing was Jim McCarthy from 
Jackson Township, New Jersey. And Jim, with tears running down 
his face, shared his story with the Committee. He explained 
that the water his family used every day was contaminated. Jim 
then told the Committee how his 9-year-old daughter died from a 
kidney disease that he believed was a result of her drinking 
and bathing in that contaminated water.
    It is tragic that now, three decades later, while the same 
crisis exists within hundreds of communities or thousands of 
communities probably, I have been asked again to speak to the 
need of an adequate Superfund program.
    Over the past 30 years Superfund has had its successes and 
failures. And I believe there were many more successes than 
failures when the program was adequately funded and the 
polluter pay fees were in place. There is no question about the 
need for the Superfund program and the need to have reliable, 
adequate funding in place to protect the American people and 
their communities.
    Let me explain to you what it is like to live in a 
community that is a Superfund community. And I will give you 
the example, you actually have a copy of this, a pretty colored 
copy of this, in your copy of my testimony. This is Behr Dayton 
Thermal Products. It is a manufacturing plant located in 
Dayton, Ohio. This facility made vehicle air conditioning and 
engine cooling systems. The Chrysler Corporation, now in 
bankruptcy, owned and operated this facility from 1937 until 
April 2002.
    The groundwater beneath this plant was tested in 2003 and 
found to be contaminated with volatile organic compounds 
including the solvent trichloroethylene or TCE. Polluted 
groundwater from beneath the plant has migrated underground 
into residential, commercial, and industrial areas.
    More testing happened in October and November 2006, and the 
EPA, at that time the Ohio EPA, asked U.S. EPA Region 5 
Superfund Division to come in and help. And what they said, and 
I quote this, TCE concentrations in soil gases were as high as 
160,000 parts per billion, and the U.S. samples of TCE showed 
concentrations of 62,000 parts per billion, and they were as 
high as 3,900 parts per billion beneath the residential area.
    Now, ATSDR says exposure to this chemical, the safe level, 
is .4 parts per billion, and the action level is 100 parts per 
billion. They also go on to say that breathing small amounts 
may cause headaches, lung irritation, dizziness, poor 
coordination, and difficulty concentrating. Breathing large 
amounts can impair your heart function, cause unconsciousness 
and death. The diseases in this community are related, the 
cancer is increased related to TCE exposure.
    People in this community remain in their homes as TCE 
vapors evaporate from the ground and are going into their 
homes. They put a vapor intrusion pipe up the side of their 
houses to take it from beneath their homes and into the ambient 
air.
    This community is a typical Superfund community. Families 
are told that their vented homes are safe. However, parents 
worry about the safety of their children sitting in the grass 
in their backyard breathing the chemicals as they evaporate 
from the soil on a hot summer day like today.
    The neighborhood school was closed, and the children were 
transferred to another school outside the plume. ATSDR reviewed 
the cancer incidence and found it to be high. Residents asked 
ATSDR what does this mean for my family, and nobody can tell 
them.
    These hardworking American families' homes are worthless. 
They cannot sell them, they cannot improve them, they cannot 
abandon them, and they do not feel like they can live in them. 
No bank will give the families a loan against their homes, so 
their families cannot fix the roof, improve the property, or 
even use the equity from their homes to send their children to 
college. Property values have already dropped 50 percent.
    These are not people looking for a free ride or a handout. 
They are hardworking, churchgoing American families. They have 
been victimized by no fault of their own. This is not the way 
our country should treat its citizens.
    For 30 years I have urged, begged, pleaded with Congress to 
take care of these innocent families who have fallen victim to 
corporate negligence and carelessness. As you continue to 
discuss the Superfund program please remember the people, their 
dreams, their hopes for their families to be able to reach 
their potential.
    Restore the polluter pays fees so that there is a reliable 
source of funding to provide the necessary assistance to 
protect the innocent American people.
    Thank you.
    [The prepared statement of Ms. Gibbs follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Lautenberg. Thank you. Out of order. Was Senator 
Moynihan in one of these seats when you testified?
    Ms. Gibbs. Senator Moynihan was, as was Senator Gore, or 
Congressman Gore. I think he was a Congressman at the time.
    Senator Lautenberg. Thank you.
    Ms. Pierson.

 STATEMENT OF HELENE M. PIERSON, EXECUTIVE DIRECTOR, THE HEART 
                        OF CAMDEN, INC.

    Ms. Pierson. Good afternoon. Thank you for the opportunity 
to speak to your Committee. And thank you, Senator Lautenberg, 
for your long service to the State of New Jersey's 
constituents.
    My name is Helene Pierson, and I am the Executive Director 
of The Heart of Camden, Inc., a first-time testifier. I am with 
a nonprofit community development corporation dedicated to 
improving the quality of life in an old, formerly booming 
industrial neighborhood called Waterfront South in Camden, New 
Jersey.
    The industrial boom left many environmental hazards behind 
after the decline and eventual shut down of a variety of 
industries in our neighborhood. In Waterfront South, we have 
two active Superfund clean up sites. They are known as the 
Welsbach Gas Mantle site and the Martin Aaronsite. One is to 
our north, and one is to our south. In addition we have 26 
other known contaminated sites in a 1-mile area that fall below 
the standard of the Superfund criteria.
    I am here today not from a scientific perspective, not from 
a time nor money perspective, as I certainly have been around 
debates over best clean up practices, I certainly feel like 
clean ups take too long, missing entire generations of people 
growing up near clean up sites, and certainly take much money. 
What I am here for is to say that clean ups should not stop and 
should not slow down.
    And I am here to say that from the perspective of working 
in an urban city environment there is much clean up needed and 
many people living near clean up areas. And that will not 
change.
    Our overriding mantra for our neighborhood is that we are 
part of America. There is money and there is capacity here in 
America to ensure that no one is living in substandard 
conditions. We all need to work hard to get the money and the 
capacity in the right place to ensure the balance.
    We have worked closely at times with the professionals 
assigned to both clean ups, both U.S. Environmental Protection 
Agency employees and their consultants. From our experience the 
process has been transparent, professional, and careful.
    But I will say to an oversight committee that from a 
neighborhood perspective, and this is a recommendation for more 
than just the Superfund process, please focus the oversight on 
examining the length of time, problems, or inefficiencies 
during the phases where no actual clean up is taking place. 
There is nothing more exciting than when actual clean up work 
is occurring. After all, is that not the point?
    Government intervention too often becomes more about the 
jobs that it creates and maintaining their need versus the 
original intent for which the jobs were created. And I will 
say, Senator Lautenberg, to your earlier questions, that I 
often see the EPA waiting to see, slowing down, because they 
are not sure if more money is coming. And that does not help.
    Julian, Dayonnie, Octavia and Arties, to put some 
children's names to the point, are part of Waterfront South's 
current generation of children that have a right to improved 
conditions. Most certainly being born into a lower income 
family has challenges of its own. They do not need the 
Government to fail them.
    My understanding of this Committee is that it is to examine 
the EPA's progress in cleaning up Superfund sites and its 
effects on the economy, the environment, and public health. The 
work is not done. Examining this system, and all systems, is 
prudent and constantly required.
    But if there is anything that I came for today, it is to 
urge you not to stop the work when there are places like my 
neighborhood where the most exciting part, actual clean up, is 
taking place, finally.
    From our close proximity to the issue we think that 
Superfund is working more than any other local or State 
vehicle. Included in your brief are some suggestions for 
specific opportunities for improvement for Superfund, including 
is the EPA ranking clean up priorities in a manner that is most 
protective of public health? That is, are they making Superfund 
sites that are in close proximity to residential communities 
the very highest priorities?
    In addition, given our 26 other contaminated sites, you 
know, we want to add more to the list when we do not have money 
to clean up what is there. Can something be created along the 
lines of a Superfund junior program, or perhaps bundle sites in 
close proximity, to qualify? Again, our point being we have 26 
more contaminated sites.
    I appreciate the time. Thank you for the opportunity to 
speak to your Committee today.
    [The prepared statement of Ms. Pierson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Lautenberg. Thank you.
    Dr. Porter.

STATEMENT OF J. WINSTON PORTER, PH.D., PRESIDENT, WASTE POLICY 
                             CENTER

    Mr. Porter. Good to see you, Senator. I am glad to be here 
today.
    I want to take a few minutes to discuss Superfund. I have 
been at Superfund for about 20 or 25 years myself, including as 
one of the early Assistant Administrators. I want to, sir, tell 
you what I have learned about how to finish sites. What we are 
talking about now is completing sites, and I have a little 
different view that I am going to present today than some of 
the things you have heard.
    Simply stated, money is not always the major problem. What 
I see is lack of management focus on results and on completing 
sites. There is a huge variety in the time it takes to clean up 
sites around the country. For similar sites, one might take 5 
years, one might take 10 or 15 or 20 years.
    About two-thirds of the sites have been completed. Now is 
the time to focus like a laser on the remaining one-third. And 
that means some dollars and a lot of emphasis. I am all for 
more dollars, but I am not for just throwing money at the 
problem and increasing EPA's overhead.
    There is a lot of overhead in Superfund. As near as I can 
tell, about a third of the money goes to clean up for the sites 
for which there are no responsible parties, and the other two-
thirds goes for other aspects of the program.
    One of the things that I would like to see the Congress do 
is push harder on the EPA to show us why we should not be 
spending more of your current budget on actual site clean up. I 
see a lot of peripheral issues going on, a lot of 
administrative things, etc. I think we can do much more about 
directing money at direct clean ups.
    One of the specific things I would recommend to Mathy and 
the other folks at EPA is to have a completion manager 
appointed at the highest levels of EPA, reporting to the 
Assistant Administrator. This person's major role would be to 
see that sites are completed. We are doing a lot of things with 
committees and so forth. I grew up in the project management 
role in a large engineering/construction company in San 
Francisco, and I learned that you have to focus hard to finish 
anything. So, I would like someone at a high level in EPA who 
focuses only on cleaning up and completing sites.
    One thing they used to say at EPA is many people can say 
no; only a few can say yes. One of the things that I did when I 
was Assistant Administrator was to write to the regional 
administrators every quarter and reconfirm a date for clean up 
of every site. I personally asked questions of them, and we got 
a lot done, frankly.
    Tim Fields of the Clinton administration, a colleague of 
mine who had a similar job, did a super job in the early 1990s 
of finishing sites by his own personal efforts. It was not the 
money so much, frankly, as it was him pushing hard to complete 
sites.
    Some sites have gone well. One of the things that I would 
like to see the EPA do is to take these sites that have gone 
well, sort of lessons learned, and say why did this site take X 
number of years and this site took 2X or 3X?
    My favorite example is Rocky Flats, which is a huge nuclear 
weapons site near Denver, which I was responsible for at EPA in 
getting it going in terms of clean up. Then later I came back 
as a consultant and helped them figure out how to clean it up.
    When a new contractor, Kaiser-Hill, came on board in about 
1995, they signed a contract in which they agreed to clean up 
that huge site in 10 years. Before that the Department of 
Energy was talking numbers like 20, 30, or 40 years, and $20 
billion, $30 billion, $40 billion. It was then finished in 10 
years, totally finished in 10 years. The contractor actually 
got a bonus for doing the work in that time period. But the 
point was they focused like a laser, they spent billions and 
billions less than was anticipated, because time is money. So, 
I think that is a really good example of how to complete 
complex sites.
    That is the reason why, I must say, I am not too enamored 
with bringing back the tax on Superfund. It was good, I think, 
in the early days when Superfund was starting. But as Senator 
Inhofe said, most of the work, about 70 percent, is being done 
directly by private parties. I started that. When I left we had 
50 percent that was being done by private parties directly, and 
that, soon after I left, got up to 70 percent.
    So, I think the problem with just giving EPA more funds in 
a tax is that a lot of it will not go to clean up. A lot of it 
will go those overheads I mentioned earlier and other things. 
If you really want to give EPA money, I would give it directly, 
perhaps on a site-by-site basis.
    I go around the country and work on sites, trying to help 
people finish. I am frustrated by the lack of focus on 
finishing sites. And that is a hard thing to do. It takes a lot 
of cooperation between the States, EPA, and others. I would 
just like to see more of that.
    As far as polluter pays, I am all for it. I pushed that 
hard during my days. But the, restoring the tax is what I call 
``some polluters must pay twice.'' The chemical and petroleum 
companies are already paying for their own sites. They now are 
being asked to pay for sites they had nothing to do with. Much 
less than half of all sites were produced by oil and chemical 
people. Automobile companies produced sites. Telephone 
companies produced sites. Many sites have been produced by non-
oil and non-chemical companies.
    So I cannot for the life of me see why it is fair to ask 
them to pay for their own sites plus pay for ones they had 
nothing to do with. Also, what we need is more focus and 
management than just more tax money.
    So, that is my focus on this, and I would be happy to 
answer your questions.
    [The prepared statement of Mr. Porter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Lautenberg. Thank you.
    Dr. Stumbo.

                 STATEMENT OF JOHN E. STUMBO, 
                  MAYOR, FORT VALLEY, GEORGIA

    Mr. Stumbo. Mr. Chairman, members of the Committee, my name 
is John Stumbo. I am a 13-year Mayor of Fort Valley, Georgia, 
which has a Superfund site. I am going to bring a couple of 
different perspectives today because I am from small town 
America.
    My town has all of 9,000 people, if you count all the cats 
and dogs. And we have about an 11-acre Superfund site in the 
middle of our city, two blocks from our downtown commercial 
district. We have some unique situations because of that. It is 
in the middle of residential neighborhood. The pollutant there 
was arsenic, heavy concentrations of arsenic that were produced 
over 70 years in the operation of two pesticide companies.
    My first purpose in being here today is to compliment the 
Environmental Protection Agency. We, after 13 years--it kind of 
parallels my tenure I guess--are just within 2 months of 
finishing up. We probably spent about $30 million on that site.
    And now the third leg of the stool, if you will, has to be 
done. The first leg is of course testing and developing records 
on decision. The second phase is to remediate. And the third 
phase is going to be up to the local communities and others to 
help with redevelopment. I do not have a choice about 
redevelopment. I cannot put a chain link fence around my site 
in the middle of my town and put a no trespassing sign on it. I 
have got to redevelop it.
    One of the things that I would suggest to EPA is that we 
have taken, Mr. Chairman, we have taken and extensively made 
use of the brownfields program, and I appreciate that very 
much. We have been the recipient of two of those, and I 
appreciate your history in that movement.
    We need to suggest to EPA that communities like mine need 
help on redevelopment. Obviously, you have done for us, they 
have done for us, what we could not have done for ourselves. I 
am an old, worn out law professor of 150 years ago, and I am 
being facetious, but one of the criticisms I have about our 
system, and this really speaks to State law, in Region 4, at 
least that I am more familiar with than the other regions, and 
certainly in my case, the potentially responsible party was at 
the bottom of a corporate ladder of parent and subsidiary 
corporations that we saw all the way up to a multinational 
holding company.
    This corporation that contaminated my site was created for 
the sole purpose of operating that site. And we looked very 
hard at trying to pierce the corporate veil and go upstream to 
assess liability because we had a multinational corporation at 
the top.
    But part of our problem is that when we have corporations 
formed under State law that potentially could be polluters we 
do nothing about ensuring their capital wherewithal or a 
protection, if you will, against that corporate liability 
shield that attaches. And I would suggest to you that in 
several places, including in Florida, Alabama and Georgia, we 
have lost the potentially responsible party because they simply 
take bankruptcy, which is what happened in our case.
    Another thing I want to speak to you about, in my 
particular goal, is the role and the involvement of the 
community. There is comment made throughout these documents 
about transparency. We set up something for which we have been 
given recently a national award by EPA. That was that 12 years 
ago, I called together all the stakeholders, about 70 of them, 
in a room, and we started meeting. And they were shouting at 
each other and yelling at each other because we had citizens 
from the community and all the agencies, both State and Federal 
there, all of the stakeholders. And there was a lot of anger in 
the room.
    The potentially responsible party had opened up the meeting 
and had hired a firm to conduct the meetings. And finally 
somebody said, after the third meeting, which was chaos, well, 
the only person in the room the people trust is the Mayor. And 
I presided over that meeting.
    We have met every 6 weeks for 12 years. And I discovered 
that if we ate together over the noon hour, that people would 
begin to talk about other things besides the affairs of the 
day, and they would get to know each other's family, and we 
would build a community.
    And that alliance, as we called it, I have talked about it 
at two prior EPA meetings around the country, because I suggest 
to you that it is an ideal way to engage the community in an 
ongoing way because every 6 weeks my people could ask questions 
of the agency representatives, State and Federal.
    And every 6 weeks we could determine what needed to be 
done, what the progress was, what the expected completion was, 
and we were able to hold everybody's feet to the fire. And we 
had some blessings. We had outstanding staff people from the 
agencies who were with us the whole 12 years. But sure enough a 
community developed. And we had a couple of members that died; 
we had a couple of members who got married and had children. We 
rejoiced in that. And we ate a meal together every time we met.
    I would suggest to you also in these Superfund sites, at 
least in small town America, that the involvement of the 
elected leaders of the community is critical to the success of 
community acceptance of a Superfund process. If that leader has 
been elected to serve then he ought to be able to engender the 
support of the people for the process.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Stumbo follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Lautenberg. Thank you.
    I would like to start with my 5 minutes and ask a couple of 
questions here of those of you here. And one of them, Dr. 
Porter, is money a bad thing to have in the program?
    Mr. Porter. Absolutely not. You certainly need money.
    Senator Lautenberg. I am glad to hear that, thank you, 
because I was not sure where you were going. I know you were 
critical of the funds spent, you were critical of the efforts 
made. The fact is that we were cleaning up sites at a heck of a 
rate. I am not sure you were here then. I do not think so. Did 
you have a business career before you worked for Government?
    Mr. Porter. That is right, yes.
    Senator Lautenberg. What was that, please?
    Mr. Porter. Engineering and construction.
    Senator Lautenberg. And you were with EPA----
    Mr. Porter. From 1985 to 1990.
    Senator Lautenberg. From 1985 to 1990. You must have done a 
pretty good job. We were cleaning up a lot of sites.
    Mr. Porter. Well, a lot of the sites were cleaned up, 
remember, by responsible parties. They were not all cleaned up 
by the----
    Senator Lautenberg. Yes. What about the orphan sites?
    Mr. Porter. Yes, well----
    Senator Lautenberg. What do you do about those? How do we 
pay for them?
    Mr. Porter. You have to pay for them with Federal money.
    Senator Lautenberg. You and I and the people in this room. 
We pay for it with Federal money.
    Mr. Porter. That is because you give $1.2 billion a year.
    Senator Lautenberg. Yes, except that more was needed. The 
pace that we had. And how do you dismiss the fact that one site 
took this long, and one site took that long? Does it matter if 
the site was large, deeply contaminated, or one that is almost 
a brownfield? Does it matter?
    Mr. Porter. Certainly.
    Senator Lautenberg. Well, I am pleased to hear you say 
that, because I was not sure where you were going before that. 
You say that you are opposed, oh, I already asked that 
question. There was so much on my mind.
    Ms. Pierson and Mayor Stumbo, it sounds like you created a 
large family circle in that small town of yours. And I think 
that you make a good point about involving the local 
officialdom and the people who have been elected. But getting 
the people who are affected in the community is a critical, 
critical issue.
    Ms. Pierson, what kinds of jobs have been created as a 
result of the Superfund clean up in your communities?
    Ms. Pierson. If you come to our neighborhood now, you will, 
with two active Superfund sites and a neighborhood that is the 
recipient of stimulus funds for housing, you will see jobs on 
the ground going on all over the place, almost in every block. 
So, there are the construction jobs.
    But there are also the Government jobs, there are the 
consultant jobs, there are the engineer jobs, there are the 
community liaison jobs. So, certainly, in a time where the 
middle class is hurting in addition to the low income 
communities, the jobs that cleaning up Superfund sites creates 
are most needed.
    Senator Lautenberg. Ms. Gibbs, thank you for your 
persistence in trying to help other people because of your own 
experience. How much can it be worth to take care of children, 
to prevent them from that kind of exposure? You know, you have 
been there, you have seen it from the beginning. What are the 
costs of failure to clean up sites in terms of healthcare, lost 
productivity, and other consequences?
    Ms. Gibbs. The costs are huge to not do anything or to, 
which has been happening because of the constraints on the 
money, is to do a Band-Aid-on-cancer type approach. So, I mean, 
if you look at the community I am talking about here, those 
families are exposed to chemicals that bother their ability to 
learn. Now, these children may not be able to learn. Their 
school, there are other schools on top of the plume, too. It 
just has not reached the capacity to be closed.
    So, now these children cannot reach their mental capacity. 
So, they may have been an airplane pilot, or they may have been 
a doctor or a lawyer. My goodness, they might have even been a 
politician. But going to the school and living in a community 
that causes them to miss school because they cannot breathe 
with asthma or to have learning disability has far reaching--I 
do not think anybody can sort of get their arms around the cost 
of that. And that is the financial cost.
    I guess one of the points I was trying to make is that we 
have got to look beyond finances. To live in a community day 
after day, you worked your whole life--your whole life--for 
that house, for that car, for that kid who would go to college. 
And now your child cannot breathe, your child cannot learn, 
your house is worthless. I mean, it is just the emotional 
costs. You just cannot put dollars and cents on it.
    And I do want to add one thing that I think you have been 
saying, Senator Lautenberg, which is that people in these 
communities are paying with their health, they are paying with 
every penny they have of personal cash, and they are paying to 
clean up the sites because the taxpayers right now are paying. 
So, they are paying for EPA to come in and do a half-built job 
to clean up the sites.
    So, they are paying and they are paying and they are paying 
and they paying and they are paying, and they are not people 
who have lots of money. They are hardworking, churchgoing, law 
abiding folks. They are paying not only for their own clean up, 
but they are paying for the clean up in Georgia, they are 
paying for the clean ups in New Jersey, they are paying. And 
this is just unfair.
    Senator Lautenberg. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have to say this, Mayor, I was listening to you. That is 
exactly what happened to me. When we first went in there, they 
had been working on that Superfund site called Tar Creek for 20 
years. They poured, I cannot tell you how much, I used to know 
how much money they paid. But we had little groups against 
different types of resolution to the problem. They had never 
been in the same room before. I forced them into the same room, 
and it ended up being, to this very day they are very close, 
personal friends, and the problems have been resolved.
    I had the same problem with the bureaucracy in Washington. 
They, we had the DOI, the DOJ, the Corps of Engineers, the EPA, 
none of them would talk to each other. And I got them in my 
office, too. So, we experienced the same thing that you did.
    Dr. Porter, you heard me tell this story, and I am just 
going from memory, on the Bossier City case. Now, you were 
there during parts of the Reagan and Bush I administrations. Is 
that correct?
    Mr. Porter. That is correct.
    Senator Inhofe. That is the earlier years of this program.
    Mr. Porter. Yes.
    Senator Inhofe. Did you have many cases like that? As I 
recall, just from reading about it at that time, I was not 
here, that when you had someone who was a polluter and was 
willing to clean up the pollution, and that was acceptable by 
the various levels of government, local and State government, 
they did it. There was more of a propensity for them to clean 
up at that time, was there not?
    Mr. Porter. That is right.
    Senator Inhofe. Can you think of some cases, when, do you 
remember that, was it during the time that you were working 
there, that the EPA would deny them that opportunity, even if 
they had the support of the local governments?
    Mr. Porter. Well, they certainly did not do it during my 
day too much because one of my major thrusts was that I wanted 
the responsible party to pay and to do the work. I used to, I 
do not need to teach DuPont how to do engineering, or Exxon, or 
any other large company. We needed to push on them hard. And so 
what we did is, I remember telling the folks at Love Canal, to 
Occidental, that, you know, the train has left the station. You 
can either pay for it, or we are going to pay for it and come 
after you. So, they ended up paying a lot of money and so forth 
to do it.
    I think it is, you make a good point, because there is 
another thing that has been done now that is even more 
creative, I think, than in the mid-1990s, and that is they are 
beginning to come after companies and saying, if you will clean 
this site up to the Superfund standards, we will not even put 
it on the Superfund list. I think that is probably the best of 
all worlds.
    There is a lot of bureaucracy in the Superfund, a huge 
amount of bureaucracy and so forth. So, one of the hammers, so-
called, was to tell people if you will clean it up yourself, 
and we certainly, we are going to come after you anyway, we 
will keep you off the list if you will meet the same criteria.
    So, I think that is the best way to do it. I have certainly 
seen cases where people, where the Government, not too often 
anymore, simply will not let people clean it up. They are 
willing to----
    Senator Inhofe. And there can be a huge differential in the 
costs, the ultimate costs. Now you, in your written testimony, 
talked about the culture of completion. You briefly addressed 
that in here vocally. Is there anything you wanted to, I am not 
sure I quite understand what that is.
    Mr. Porter. Well, what I think, and I worked a lot with the 
Department of Energy, the Department of Defense, and of course 
EPA and private parties on the Superfund for a long time with 
my thrust trying to be let us clean the sites up. I will yield 
to no one in terms of trying to get results. I want to clean 
the sites up, maybe almost to a fault.
    What I invented a while back was the term called, we need a 
culture of completion, which the Mayor has talked about and 
others. We are going to finish this site, and we are going to 
set deadlines, and we are going to stick the deadlines, and we 
are going to do it, as opposed to what we have now to some 
extent, which is what I call a culture of deliverables.
    That means you have 20 reports at every Superfund site, 
roughly 20 reports, work plans, all kinds of things. EPA will 
pay $100,000 to a contractor to review a work plan of another 
contractor, and they will create 300 pages of comments which 
work cannot even start until that is finished.
    So, what I am trying to promote a little bit if I can is 
rather a culture of delivering, just saying well, if I do all 
these reports the site will magically be finished; no, it will 
not be magically finished until you push very hard to do it. 
So, what I am trying to create or help create is a culture of 
completion where from like Mathy on down we want to finish 
these sites as opposed to saying, if we had more money, if we 
just do more things. I am seeing $20 million and $30 million 
and $40 million studies these days. Not the actual clean ups. 
The studies are $20 million and $30 million and $40 million. I 
just think that is unconscionable.
    Senator Inhofe. Yes, well, and I agree. And that is what I 
thought it was. And that is the reason that on the cases that 
we are familiar with in years past, there were, they just kept 
going on and on and on, and we would get reports back, and you 
could just tell that money was being spent when it could have 
been much more efficient.
    And there is a basic concept here, too, and that is, you 
know, is Government more efficient as a general rule than the 
private sector, and there is a difference right here at this 
table.
    Do you know, do you think there are many more Superfund 
sites to be discovered?
    Mr. Porter. Yes, I think there are. But I am not one who 
believes there are thousands of more sites out there or maybe 
many hundreds. I think that one of the good things about 
Superfund, we have screened through tens of thousands of sites. 
To get down to the 1,500, we have probably looked at 40,000 or 
50,000 over the 30-year period. And I think we have done a 
pretty good job of finding the worst sites. There will be more, 
but I do not believe there will be a whole lot more.
    And I also would add that we have many other programs now. 
We have the brownfields program, every State has its own 
Superfund program, various Federal agencies have their own 
programs. Most State programs clean up sites faster than the 
EPA because they do not have the bureaucracy and so forth.
    I used to say, not long ago, to people, it is not the honor 
it used to be to be a Superfund site. People do not necessarily 
want to be a Superfund site. They know it is a long, drawn out 
process. So, if we have got another way to clean it up other 
than Superfund, that is not bad either.
    Senator Inhofe. Well, you know, as a general rule, and I 
know there is disagreement probably at this table here, but I 
look at the Mayor, and I have got to tell you, Mayor, I had a 
hard job one time. I was the mayor of a city. If you are mayor, 
there is no hiding place, and I have often lived by the axiom 
that the closer the level of government to the people, the more 
efficiency, the more efficient it is. I still believe that.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks.
    Dr. Porter, you were here until 1991?
    Mr. Porter. From 1985 until sometime in 1989, a little bit 
into Bush I.
    Senator Lautenberg. In 1989. And you have kept an eye on 
EPA since that time because you have seen all the 
mismanagement, the mistakes. How about, does the management of 
the Agency matter as to how the Agency functions at all?
    Mr. Porter. Absolutely. In fact one of the people I am the 
most laudatory of happens to be a member of the Clinton 
administration. I have tried to be bipartisan in this. I think 
everybody that has had my old job has done generally a good 
job. But there is always room for improvement.
    And just to take, you are talking about the 80 sites per 
year cleaned up in the 1990s, that was largely a fellow name 
Tim Fields who is a very good engineer who used to work for me. 
He was appointed by the President to that job. And he, unlike 
some of the Assistant Administrators, took direct 
responsibility for many of the sites.
    Senator Lautenberg. We are not going to go through an 
exercise of who was at fault. You were at fault in some way. 
You did so well in cleaning up. So what happened? Do you mean 
after you left things fell apart?
    Why was the funding, as it existed, the polluter pays, do 
you know why it was terminated?
    Mr. Porter. I do not think polluter pays was terminated. I 
think the goal is still to go after people who do the pollution 
if you can find them----
    Senator Lautenberg. Yes, well what about the orphans? How 
should we have handled this?
    Mr. Porter. You have to deal with the orphans with some 
type, usually, of Federal money. You appropriate money each 
year. And I am not saying there should not be more money. In 
some ways, if you can identify specific sites----
    Senator Lautenberg. Well, I think that is what you said.
    Mr. Porter. But not just adding to the overhead.
    Senator Lautenberg. I think that is what you said.
    The Committee recently passed, Ms. Pierson, a Cleanfields 
Investment Act of which I was the author, to provide grants to 
clean up properties that are less polluted than Superfund sites 
and place renewable electricity facilities on those sites. 
Would something like this be of benefit in a community like 
Camden that is so desperate for jobs, so desperate for 
improvement? Can we get any value out of something like that?
    Ms. Pierson. I just recently heard about your Cleanfields 
and will look at that more. We are excited to know that. 
Everyone realizes this is still a problem. We are excited to 
know that people are introducing solutions, and from what I 
know so far it sounds like a very good program to help us.
    Senator Lautenberg. Yes, thanks. I was kind of fishing for 
an answer there, and I--just to make the point that jobs are 
available, and we should look at that side of things.
    Dr. Porter, you offer some constructive advice on how to 
improve the efficiency of the Superfund program. But you 
advocate taking expected land use into account in deciding the 
level of clean up for a site, arguing it does not make sense to 
require the same level of clean up for a factory as it does for 
a daycare center. Does that not fail to take into account that 
land use can change over time?
    Mr. Porter. Absolutely. And what I would say is, you want 
the site to always be safe. If the land use changes you might 
have to change what you did there. I mention the site out in 
Colorado again, the Rocky Mountain Arsenal. When they turned it 
into a wildlife refuge they did something quite different than 
when they were planning on subdivisions there. But they have to 
go back and deal with that again if subdivisions do occur.
    Senator Lautenberg. What we are going to do is we will keep 
this record open so that members of the Committee can submit 
questions in writing. And I would ask that if you do get any 
questions that you issue a prompt response, no longer than 10 
days after you have gotten the inquiry.
    I thank each of you for your contribution, and we will go 
on from here. And I will continue to fight to make sure that 
polluters pay for the work that they did. I ran, as I 
mentioned, a big company. And I know that we had a 
responsibility for everything we did. And when I was asked 
whether I would terminate somebody in the company for a 
relatively minor thing, I said no, because we had thousands of 
employees, thousands of customers, thousands of shareholders. 
And you have got to think about the community at large.
    And one of the things that upsets me terribly is how 
corporate behavior, getting away from Government, can 
misbehave. And I am on the board of the Columbia University 
Business School, my alma mater. And in 2001, when I left the 
Senate for a couple of years, I founded a Chair in Corporate 
Governance and Business Ethics. And boy, I want to see it 
returned.
    Thank you all very much for being here today.
    [Whereupon, at 4:13 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    
                                 <all>
</pre></body></html>
